No. 20-18

 

IN THE
Supreme Court of the United States

ARTHUR GREGORY LANGE,

Petitioner,
v.

STATE OF CALIFORNIA,
Respondent.

On Petition for a Writ of Certiorari
to the Court of Appeal of the State of California,
First Appellate Division

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,676 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 23, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
